                                                                                        Report No. AUD-08-001
                                                                                                 October 2007
                                   FDIC’s IT Disaster Recovery Capability
                                   Results of Audit

                                   The FDIC has established and implemented an IT disaster recovery
                                   capability that is consistent with federal standards and guidelines and
Background and Objective           industry-accepted practices. Among other things, the FDIC has
of the Audit                       established an alternate processing site and developed written plans to
                                   recover its general support systems and mission-critical applications
The Office of Management           following a disaster. In April 2007, the FDIC’s Division of Information
and Budget has issued policy       Technology (DIT) conducted a test of its IT disaster recovery capability
requiring federal agencies to      and successfully recovered its general support systems and mission-critical
establish and periodically test    applications. DIT issued a report on the results of its IT disaster recovery
their ability to recover from      testing, including the issues it identified during the testing and associated
information technology (IT)        solutions, to improve future recovery responsiveness and reliability.
service interruptions. In
addition, the National Institute   These accomplishments are positive. However, our audit identified the
of Standards and Technology        following areas needing enhancements to further assure that information
(NIST) has developed security      security controls are in place in the event of a disaster.
standards and guidelines to
assist agencies in restoring           •   The FDIC’s corporate contingency planning policy does not reflect
their information systems                  the FDIC’s current IT disaster recovery practices or recent NIST
following a disruption or                  guidance.
failure. Further, organizations
can consider adopting a                •   Security patches were not installed on certain servers in the FDIC’s
number of industry-accepted                alternative processing site.
practices related to IT disaster
recovery.                              •   DIT had not documented or tested its strategy for recovering key
                                           security services designed to protect the FDIC’s alternate
Key to achieving the FDIC’s                processing capability during a disaster.
business goals and objectives
is having a reliable recovery      Our report also identifies opportunities for DIT to enhance its IT disaster
capability for the                 recovery performance metrics. We discussed these opportunities with DIT
Corporation’s critical IT          officials during our audit.
systems and applications.
                                   Recommendations and Management Response
The objective of the audit was
to determine whether the           We recommended that FDIC management (1) update the FDIC’s corporate
FDIC has established and           contingency policy; (2) take steps to ensure that security patches are
implemented an IT disaster         installed on disaster recovery servers in a timely manner; and (3) document
recovery capability consistent     and test, as appropriate, DIT’s strategy for recovering key security
with federal standards and         services. In general, management concurred with our recommendations
guidelines and industry-           and is taking responsive corrective action.
accepted practices.
                                   Because the report addresses issues associated with information security,
                                   we do not intend to make public release of the specific contents of the
                                   report.
